S
                                                                         EMPLOYEE BENEFITS SECURITY

U.S. Department of Labor
C
H
E                                                                        ADMINISTRATION
D
U
L
E

S                          Office of Inspector General—Office of Audit
C
H
E
D
U
L
E

D
R
A
F
T




                                                                         EBSA NEEDS TO PROVIDE ADDITIONAL
                                                                         GUIDANCE AND OVERSIGHT TO ERISA PLANS
                                                                         HOLDING HARD-TO-VALUE ALTERNATIVE
                                                                         INVESTMENTS




                                                                                             Date Issued:   September 30, 2013
                                                                                          Report Number:      09-13-001-12-121
U.S. Department of Labor                                           September 2013
Office of Inspector General
                                                                   EBSA NEEDS TO PROVIDE ADDITIONAL
Office of Audit
                                                                   GUIDANCE AND OVERSIGHT TO ERISA
                                                                   PLANS HOLDING HARD-TO-VALUE
                                                                   ALTERNATIVE INVESTMENTS
BRIEFLY…
Highlights of Report Number 09-13-001-12-121, issued to the        WHAT OIG FOUND
Assistant Secretary for Employee Benefits Security.                EBSA has made efforts to improve its oversight of plans that
                                                                   hold hard-to-value alternative investments. Despite these
WHY READ THE REPORT                                                efforts, however, EBSA must take further action to increase
About 150 million Americans currently have approximately           protections for participants and beneficiaries of plans investing
$6.5 trillion invested in retirement accounts. How plans           in these types of investments. We found EBSA had not
invested these funds has a direct – and sometimes harmful –        formalized into regulatory guidance a requirement that plan
effect on the retirement security of plan participants. The        administrators identify and adequately support the fair value of
Employee Retirement Income Security Act of 1974 (ERISA)            hard-to-value investments nor implemented the 2006, 2008,
governs the investment of assets in private sector employee        and 2011 ERISA council recommendations on the same. As a
benefit plans, which include both retirement and health and        result, plans are using poor practices in valuing these
welfare plans. The Employee Benefit Security Administration        investments. Almost no plan administrator in our samples
(EBSA) oversees private sector management of employee              obtained an independent valuation or demonstrated an
benefit plans.                                                     analytical process to determine the fair value of all their hard-to-
                                                                   value assets.
ERISA places responsibility on plan administrators to
accurately report the fair value of plan assets. An accurate       Plans can and have invested in unaudited alternative
valuation of plan assets plays a critical role in determining      investments that self-report their asset values. This provides no
plan funding levels and payments to participants and               independent opinion of asset values, and effectively no
beneficiaries because the assets in a plan determine its ability   assurance that the assets in question even exist. Additionally,
to pay beneficiaries.                                              even audited fund values reported by alternative investment
                                                                   entities may not always translate into fair value for the plans
EBSA faces challenges in meeting its mission because some          invested because of complex factors such as illiquidity of
plans have increasingly shifted assets from traditional            ownership interests and other considerations. Compounding
investments, such as stocks and bonds, to complex                  this problem is the fact that plan administrators have
alternative investments, such as limited partnerships, common      increasingly used limited scope audits, in which plan auditors do
collective trusts, and hedge funds. As of 2010, employee           not test for existence or valuation of plan assets in certain
benefit plans had amassed almost $3 trillion in alternative        cases. In 2010, approximately $3 trillion in assets received only
investments, of which EBSA estimated between $800 billion          a limited scope audit.
and $1.1 trillion were hard-to-value. In 2010, the Internal
Revenue Service (IRS) Emerging Issues Task Force reported          Lastly, we found EBSA could improve procedures in
to EBSA that significant assets invested by plans in alternative   enforcement reviews and Form 5500 reporting, data collection,
investments may be a serious problem.                              and targeting for plans with hard-to-value alternative
                                                                   investments. EBSA has previously stated that in light of the
                                                                   challenges facing retirement plan fiduciaries and investors, such
WHY OIG CONDUCTED THE AUDIT                                        as Ponzi schemes and hard-to-value assets, participants need
Concerns by various parties, such as the Internal Revenue          protection from potential losses.
Service, General Accountability Office, and American Institute
of Certified Public Accountants (AICPA) over plan assets
invested into alternative and hard-to-value investments            WHAT OIG RECOMMENDED
prompted the OIG to conduct an audit to determine if EBSA is       We recommended the Assistant Secretary for Employee
providing adequate oversight of employee benefit plans that        Benefits Security take the following actions for plans holding
hold alternative investments.                                      hard-to-value alternative investments: (1) propose and
                                                                   formalize guidance and evaluate the ERISA Council
                                                                   recommendations, (2) improve procedures in enforcement
READ THE FULL REPORT                                               reviews, and (3) improve Form 5500 data collection, analysis,
To view the report, including the scope, methodology, and full     and targeting.
agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2013/09-13-001-12-        In response, EBSA stated that it did not believe the trillions of
121.pdf                                                            dollars of plan assets invested in alternative investments and
                                                                   hard-to-value assets pose significant valuation concerns, that
                                                                   ERISA already provided sufficient guidance, that its
                                                                   investigative procedures were sufficient, and that the Form
                                                                   5500 already focuses on asset valuation. EBSA agreed to
                                                                   further consider the OIG recommendations, but did not
                                                                   provide any explicit corrective actions.
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     EBSA Oversight of Alternative Investments
                                Report No. 09-13-001-12-121
                                                      U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Objective — Has EBSA Provided Adequate Oversight of ERISA Plans Investing In
Alternative Investments?.............................................................................................. 7
         EBSA Needs to Increase Protections For Employee Benefit Plans
         Investing in Hard-to-Value Alternative Investments ........................................ 7

         Finding 1 — Additional Guidance is Needed for Plans Investing in Hard-to-Value
                     Alternative Investments to Increase Protections for Plan Participants
                     and Beneficiaries .............................................................................. 7
         Finding 2 — EBSA Needs to Improve Procedures in Enforcement Reviews of
                     Plans' Valuations of Hard-To-Value Investments ........................... 14
         Finding 3 — The Form 5500 Data Collection Process Does Not Provide Ready
                     Access to Important Information ..................................................... 17

Recommendations ...................................................................................................... 19

Appendices .................................................................................................................. 21
         Appendix A Background ..................................................................................... 23
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 25
         Appendix C Acronyms and Abbreviations .......................................................... 29
         Appendix D EBSA Response to Draft Report ..................................................... 31
         Appendix E Acknowledgements ......................................................................... 39




                                                                      EBSA Oversight of Alternative Investments
                                                                                 Report No. 09-13-001-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     EBSA Oversight of Alternative Investments
                                Report No. 09-13-001-12-121
                                      U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 30, 2013

                         Assistant Inspector General’s Report


Phyllis C. Borzi
Assistant Secretary for Employee Benefits Security
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210


Almost half the population of the United States – about 150 million Americans – has
invested approximately $6.5 trillion in retirement accounts. How plans invest these funds
has a direct – and sometimes harmful – effect on the retirement security of plan
participants. The Employee Retirement Income Security Act of 1974 (ERISA) governs
the investment of assets in private sector employee benefit plans. ERISA charges the
Secretary of Labor with overseeing private sector management of employee benefit
plans. The Department of Labor (DOL), Employee Benefit Security Administration
(EBSA) carries out the Secretary’s oversight role.

In the context of our report, the terms “fiduciary” and “plan administrator” refer to a
person or entity who has control over plan assets, gives investment advice, or has
responsibility for plan administration. ERISA requires that plan fiduciaries: 1) carry out
their duties with care, skill, prudence, and diligence; 2) use independent qualified public
accountants (IQPAs) to audit employee benefit plan financial statements in the case of
most large funded employee benefit plans; and 3) report the current value of plan
assets annually on the plans Form 5500 Annual Return/Report of Employee Benefit
Plan. An accurate fair market valuation of plan assets plays a critical role in determining
plan funding levels and payments to participants and beneficiaries. Only audits that
meet professional standards assist plan administrators in meeting their responsibility for
proper valuation and reporting of plan assets. Since 1984, the OIG has recommended
that EBSA seek legislation to strengthen the quality of employee plan audits. The
ultimate responsibility for accurately reporting the fair market value of plan assets,
however, lies with plan administrators.

EBSA faces challenges meeting its mission because some plans have increasingly
shifted assets from traditional investments, such as stocks and bonds, into an array of
complex, hard to define alternative investments, such as common collective trusts,
private equity funds, limited partnerships, hedge funds, and real estate. As of 2010, the
latest year for which data is available, employee benefit plans had amassed almost

                                                      EBSA Oversight of Alternative Investments
                                              1                  Report No. 09-13-001-12-121
                                                    U.S. Department of Labor – Office of Inspector General


$3 trillion in these alternative investments. 1 Of this amount, EBSA estimated that
anywhere between $800 billion and $1.1 trillion should be considered hard-to-value as
approximately $2 trillion can be traced to other line items that generally would not
include hard-to-value assets. However, there is not sufficient information in the Form
5500 Annual Return/Report schedules for EBSA to positively state, and the OIG to
verify, this amount, a fact which further emphasizes the need to improve the Form
5500’s data gathering abilities.

The Financial Accounting Standards Board (FASB) established a framework for
measuring fair value. The framework provides a fair value hierarchy that ranks
investments into three levels – level 1 for assets with quoted prices in actively traded
markets to level 3 for assets that are hardest to value because they lack a generally
recognized market. However, plan administrators cannot easily determine the fair
market value of alternative investments for a number of reasons. First, alternative
investment entities may be unaudited, not listed on any national exchange, and not
subject to state or federal regulation. Second, plans are not required to obtain an
independent valuation to demonstrate the fair market value of these types of
investments. Third, ERISA allows plans to elect a “limited scope audit” for purposes of
filing the Form 5500 Annual Return/Report. In such audits, IQPAs perform no auditing
procedures to test for existence or valuation of plan assets held and “certified” by a
qualifying financial institution. Fourth, financial institutions holding these plan assets
need not certify for purposes of a limited scope audit that they are reporting the assets
at fair market value, but only that the records are “complete and accurate.” Lastly, the
financial institutions’ records could be nothing more than a pass through of estimated
values the institutions received directly from the alternative investment entity, which
gives rise to a conflict of interest when it comes to reporting investment losses.

As a result, a potentially unaudited investment entity – which may have an incentive to
report gains and asset growth rather than losses – can provide the values of alternative
investments to a financial institution which, in turn, transmits these values to plan
administrators without employing any audit procedures, analyses, or due diligence to
verify the information provided by the investment entity. This lack of transparency and
accountability places participants and beneficiaries at increased risk for losses.

Because of these concerns, we conducted an audit to answer the following question:

           Is EBSA providing adequate oversight of employee benefit plans that use
           alternative investments?

To answer this question, we reviewed accounting and pension industry professional
standards, applicable regulations, and EBSA policies and procedures. We also
reviewed a sample of EBSA’s Office of Enforcement investigations of plans with
hard-to-value investments from FYs 2008 through 2012 and a sample of records from
retirement plans.

1
    Data is based on 2010 Form 5500 filings for plans with 100 or participants and audited financial statements.
                                                                   EBSA Oversight of Alternative Investments
                                                            2                 Report No. 09-13-001-12-121
                                      U.S. Department of Labor – Office of Inspector General


RESULTS IN BRIEF

EBSA’s oversight of plans that invest in alternative investments included issuing
guidance on certain types of investments, providing compliance assistance and
outreach, conducting regional enforcement projects on plans with hard-to-value
investments, and targeting studies on how plans report fair market valuation. Despite
these efforts, EBSA must take further action as plan participants and beneficiaries of
plans investing in alternative investments need stronger assurances that EBSA is
providing effective guidance and oversight, because:

   1) EBSA has not recently issued uniform formal guidance on prudent valuation and
      reporting for hard-to-value alternative investments;
   2) Plans are using poor practices in valuing alternative investments;
   3) The use of limited scope audits is increasing;
   4) Improvements are needed in enforcement review procedures for plans with these
      types of assets; and
   5) Form 5500 reporting and data collection for hard-to-value investments has
      certain limitations.

As a result, participants and beneficiaries who invested in plans to accrue retirement
income are at an increasing risk of loss as employee benefit plan assets invested in
alternative investments grow. Both EBSA and the Securities and Exchange Commission
(SEC) have filed numerous civil actions and made significant recoveries against plan
management and fiduciaries for significant losses to plan participants and beneficiaries
resulting from hard-to-value alternative investments.

Lack of Uniform Guidance for Hard-to-Value Alternative Investments

While the ERISA Advisory Council, General Accountability Office, and the American
Institute of Certified Public Accountants (AICPA) have all recommended EBSA provide
guidance to fiduciaries using alternative investments, EBSA has not yet implemented
these recommendations. In addition, EBSA has not formalized into regulatory guidance
a letter the Boston Regional Office Director issued to specific plans notifying them that
failure to properly value alternative investments or establish a process to evaluate the
fair market value of these investments violates ERISA. Similarly, EBSA proposed, but
never finalized, guidance that would have required written documentation relating to the
determination and basis of fair market value of securities without a generally recognized
market. In 2010, the Internal Revenue Service (IRS) Emerging Issues Task Force
determined and reported to EBSA that significant assets invested by plans in alternative
investments may be a serious problem.

Lack of Appropriate and Independent Valuation

Plan management could not always demonstrate that it prudently monitored and valued
plan assets invested in hard-to-value alternative investments. Approximately 90 percent
of plans in our sample of both EBSA investigative case files (39 out of 46), and
                                                  EBSA Oversight of Alternative Investments
                                            3                Report No. 09-13-001-12-121
                                                  U.S. Department of Labor – Office of Inspector General


responses we received from retirement plans (42 out of 45), representing about
$24 billion in assets, either did not obtain independent valuations or demonstrate an
analytical process to determine their fair market value. Plans also relied on client
statements and general partners’ estimated values without additional analysis to ensure
that the alternative investments were reported at fair market value.

Increased Use of Limited-Scope Audits

In 2010, approximately $3 trillion in assets received only a limited-scope audit, up from
$520 billion in 1989. Limited scope audits present challenges for plan administrators in
accurately valuing and reporting hard-to-value alternative investments. IQPAs do not
test for the existence or valuation of assets certified by financial institutions. Further,
qualified institutions are not required to certify plan assets at fair market value, but only
as complete and accurate as reflected in their records. For hard-to-value investments,
records of the certifying institution could be nothing more than a pass through of
estimated values directly from the alternative investment entity. Compounding the
problem is the fact that plan assets may be invested in non-publicly traded entities,
which themselves may not be subject to annual financial statement audits. As a result,
potentially unaudited private investment entities can self-report their assets to plans that
may only obtain limited-scope audits, thus providing no assurance of asset existence or
valuation. The OIG has previously recommended that EBSA seek repeal of the limited
scope audit, and in the interim clarify the requirements needed to hold and certify plan
assets and provide guidance to plan administrators to identify and adequately support
the current value of plan assets in limited scope audits.

EBSA Enforcement Review Procedures

In our sample of regional office case files, we found EBSA lacked specific investigative
procedures to identify whether plans obtained independent valuations or plan
management had established a process to evaluate the fair market value of all
hard-to-value plan investments. In addition, although there is a formal referral
procedure in place for regional offices to refer cases to EBSA’s Office of Chief
Accountant, there are no specific procedures to refer cases with substandard audit
quality.

Limitations in Form 5500 Reporting and Data Collection for Hard-to-Value Investments

The Form 5500 is an important compliance, research, and disclosure tool for EBSA.
The Form, however, has a limited ability to capture information on hard-to-value
investments. While the Form 5500 Schedule H 2 provides information on specific asset
classes, it does not contain sufficient data to determine the specific types of plan
investments that lack a generally recognized market. More detailed information on
specific asset classes is generally contained in the plans’ financial statements, which

2
 Schedule H of the Form 5500 captures financial details about the plan’s assets, liabilities, and investments, among
others.
                                                                 EBSA Oversight of Alternative Investments
                                                          4                 Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


are attached to the Form 5500 filing. However, EBSA cannot adequately electronically
search and correlate the data contained in the attachment. As a result, EBSA can
neither effectively determine the total amount of hard-to-value investments nor target
plans for compliance with reporting requirements. In fact, EBSA has provided us varying
estimates for hard-to-value assets, pointing out that a firm number for these assets
cannot be readily derived in an automated way from Form 5500 filings.

EBSA needs to provide additional oversight and guidance to ERISA plans that hold
hard-to-value alternative investments. Without adequate assurances that plan
management and administrators prudently select, monitor, and value plan investments,
ERISA plans invested in these types of assets can sustain losses from imprudent,
speculative, Ponzi, and other fraudulent schemes, which are prime examples of why
assurances of existence and valuation matter. Participants and beneficiaries hoping to
accrue retirement income are at an increasing risk of loss as employee benefit plan
assets invested in alternative investments grow.

We recommend EBSA propose and formalize guidance and evaluate the ERISA
Council recommendations, improve procedures in enforcement reviews, and improve
Form 5500 data collection, analysis, and targeting.

EBSA’S RESPONSE

In response, the Assistant Secretary for Employee Benefits Security stated that EBSA
did not believe the trillions of dollars of plan assets invested in alternative investments
and hard-to-value assets pose significant valuation concerns. EBSA asserted that
ERISA, along with some other materials issued by EBSA, provide sufficient guidance
to plan administrators. EBSA also stated its investigative procedures were sufficient
and the Form 5500 already addresses valuation issues. EBSA agreed to further
consider the OIG recommendations, but did not provide explicit corrective actions.
The Assistant Secretary’s entire response is contained in Appendix D.

The OIG disagrees with EBSA’s response. As a result, we made no changes to our
conclusions and recommendations, as they already adequately address all of the
relevant points in EBSA’s response. We made some technical corrections to our
report based mostly on EBSA’s revised estimate of the total value of hard-to-value
assets.

RESULTS AND FINDINGS

The term “alternative investments” generally describes assets that are not traded on a
generally recognized financial market. These can be as simple as real estate – whose
value may fluctuate unpredictably, as demonstrated by recent events, or as complex as
hedge funds and private equity funds. In some cases, for example real estate, the value
of the underlying assets can be determined with relatively uncomplicated procedures,
such as appraisals. In other cases, asset values can be more elusive. For example,
private equity funds may intentionally keep their inner workings opaque so they do not
                                                   EBSA Oversight of Alternative Investments
                                              5               Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


have to divulge their investment strategies as a means to gaining a competitive
advantage.

The AICPA defines alternative investments as assets that are not listed on any national
exchange or over-the-counter market, or for which quoted market prices are not
available from sources such as publications, the financial markets, or the National
Association of Securities Dealers Automated Quotations System (NASDAQ). These
investments generally do not fall under any federal or state regulator and have greater
flexibility in investment strategies than publicly traded, registered investment
companies.

The FASB established a framework for measuring fair value. The framework provides a
fair value hierarchy that ranks investments into three levels – level 1 for assets with
quoted prices in actively traded financial markets, level 3 for assets that are the hardest
to value because they lack a generally recognized market.

ERISA requires plan fiduciaries to carry out their duties with the care, skill, prudence
and diligence of a knowledgeable person under similar circumstances, and ultimately,
the responsibility for properly investing, managing, and reporting on plan assets –
including valuing alternative investments – falls on the plan administrator and other
fiduciaries. 3 EBSA, however, provides in large part the regulatory framework that helps
guide administrators and other fiduciaries and defines their responsibilities.

EBSA has taken some actions in response to the proliferation of alternative
investments. EBSA’s oversight of plans that invest in alternative investments has
included issuing guidance on investments in derivatives, providing compliance
assistance and outreach, conducting regional enforcement projects on plans with
hard-to-value investments, and targeting studies on how plans report fair market
valuation. EBSA, however, can take further actions to improve protections for plan
participants and beneficiaries.

We reviewed a sample of EBSA enforcement cases files for FYs 2008 and 2012 of
plans with hard-to-value investments to evaluate EBSA’s oversight of employee benefit
plans investing in these types of investments (the “enforcement sample”). We also
reviewed a sample of employee benefit plans that had twenty percent or more of plan
assets invested in alternative investments for the 2010 filing year. For this sample, we
contacted plan administrators to obtain documentation to determine how they ensured
the fair value of the plan’s hard-to-value alternative investments (the “plans sample”).




3
    29 CFR 2550.404.
                                                   EBSA Oversight of Alternative Investments
                                             6                Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


Objective — Has EBSA Provided Adequate Oversight of ERISA Plans Investing In
             Alternative Investments?

      EBSA Needs to Increase Protections For Employee Benefit Plans Investing in
      Hard-to-Value Alternative Investments

Finding 1 — Additional Guidance is Needed for Plans Investing in Hard-to-Value
            Alternative Investments to Increase Protections for Plan Participants
            and Beneficiaries

As of 2010, the latest year for which data is available, retirement plans had amassed
almost $3 trillion in alternative investments, of which EBSA estimated amounts between
$800 billion and $1.1 trillion were hard-to-value. Estimates of the total dollars invested in
retirement plans vary, but are generally thought to be around $6.5 trillion.
In 2010, the Internal Revenue Service (IRS) Emerging Issues Task Force determined
and reported to EBSA that significant assets invested by plans in alternative
investments may be a serious problem.

The ERISA Advisory Council, General Accountability Office, and AICPA have all
recommended EBSA provide guidance to fiduciaries using alternative investments,
EBSA has not yet implemented these recommendations. In addition, EBSA has not
formalized into regulatory guidance a letter (the “Benages” letter) issued to specific
plans notifying them that failure to properly value alternative investments or establish a
process to evaluate the fair market value of these investments violates ERISA.
Similarly, EBSA proposed, but never finalized, guidance that would have required
written documentation relating to the determination and basis of fair market value of
securities without a generally recognized market.

Plan management could not always demonstrate that it prudently monitored and valued
all plan assets invested in hard-to-value alternative investments. In approximately
90 percent of both our “enforcement” and “plans” samples, representing about
$24 billion in assets, plan administrators either did not obtain independent valuations or
demonstrate an analytical process to determine their fair market value. Plans also relied
on client statements and general partners’ estimated values without additional analysis
to ensure the alternative investments were reported at fair market value.

In 2010, approximately $3 trillion in assets received only a limited-scope audit, up from
$520 billion in 1989. ERISA allows plans to elect a “limited scope audit,” whereby IQPAs
perform no auditing procedures to test for existence or valuation of plan assets held and
“certified” by a qualifying financial institution. Financial institutions are not required to
certify that they are reporting the assets at fair market value, but only that the records
are “complete and accurate,” which can result in a pass-through of estimated values the
institutions received directly from the alternative investment entity. Compounding the
problem is the fact that plan assets may be invested in non-publicly traded entities,
which themselves may not be subject to annual financial statement audits. As a result,
potentially unaudited private investment entities self-report their assets to plans that
                                                   EBSA Oversight of Alternative Investments
                                             7                Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


may only obtain limited-scope audits, thus providing little assurance of asset existence
or valuation.

Alternative Investments that are Hard-to-Value Pose Increased Risks to Plans and Have
Resulted in Large Losses

Both EBSA and the Securities and Exchange Commission (SEC) have filed numerous
civil actions and made significant recoveries totaling more than $900 million against
plan management and fiduciaries for losses to plan participants and beneficiaries
resulting from hard-to-value alternative investments. For example:

   •   In Solis v. Beacon Associates LLC, the DOL alleged dozens of employee benefit
       plans lost hundreds of millions in assets and violated ERISA by recommending,
       making, and maintaining investments with Bernard L. Madoff Investment
       Securities LLC (“BLMIS), resulting in the loss of hundreds of millions of dollars.

   •   In Chao v. Maddaloni, the DOL sued the trustees of a pension fund to remove
       them as plan trustees and restore losses in connection with the imprudent
       management of the plan’s $800 million investment in a country club in Florida.

   •   In Chao v Circle Trust Company, the DOL sued Circle Trust Company (CTC) of
       Darien, CT, to restore millions of dollars in losses on imprudent and risky
       investments with the “Trust Advisors Stable Value Plus Fund” (SVF), a collective
       trust administered by CTC. Circle Trust served as a trustee to SVF, which had
       invested approximately $200 million from 1,500 pension plans nationwide.

Guidance Issued by EBSA

EBSA has stated that in light of the challenges facing retirement plan fiduciaries and
investors, such as Ponzi schemes and hard-to-value assets, participants need
protection from potential losses. However, the guidance EBSA has issued, although
sound, has not provided a comprehensive framework that plan administrators could use
to determine the appropriate way to value alternative investments. EBSA’s specific
guidance has been limited and targeted at specific plans or types of investments. The
guidance included the following documents:

       •   On June 26, 1979, EBSA issued a regulation, 29 CFR 2550.404a-1,
           regarding the investment duties of plan fiduciaries relating to any types of
           investments they would consider.

       •   On May 17, 1988, EBSA proposed a regulation which would have established
           “…additional content requirements for written documentation of valuation
           when the asset being appraised is a security other than a security for which
           there is a generally recognized market.” Additionally, in DOL’s view, written
           documentation relating to the valuation was necessary for a determination of
           how, and on what basis, an asset was valued, and therefore whether that
                                                   EBSA Oversight of Alternative Investments
                                             8                Report No. 09-13-001-12-121
                                      U.S. Department of Labor – Office of Inspector General


          valuation reflected an asset's fair market value. Moreover, DOL believed it
          would be contrary to prudent business practices for a fiduciary to act in the
          absence of such written documentation of fair market value. The proposed
          regulation, which detailed the analysis and documentation required to support
          the valuation of such assets, was never finalized. EBSA, however, noted in its
          July 19, 2007, Kansas City Regional Office investigation manual, that
          although DOL never finalized this proposed regulation, most valuation
          practitioners do consider DOL’s proposed regulation in discharging their
          responsibilities.

      •   On March 21, 1996, EBSA issued an Information Letter to the Comptroller of
          the Currency regarding ERISA plans’ investments in derivatives (the “Ludwig”
          letter). The letter indicated that, among other things, plan fiduciaries have a
          duty to determine the appropriate methodology to use to evaluate market risk
          and the information that must be collected to do so. The Ludwig letter,
          however, specifically targeted derivatives and did not address other
          hard-to-value investments.

      •   On July 1, 2008, the Director of EBSA’s Boston regional office sent a letter to
          specific plan administrators located within the jurisdiction of the Boston
          regional office to advise them that failure to have an established process by
          which the fair-market value of alternative investments can be determined
          violates ERISA. He further advised that if the plan administrators did not
          adopt such a process, EBSA could be prompted to file a lawsuit against a
          plan. EBSA has not, however, formalized the letter as agency policy.

EBSA stated that a decision to initiate rulemaking to re-propose the 1988 regulation or
formalize the 2008 Boston letter would have to be considered in the context of EBSA’s
other regulatory priorities and resource constraints.

Sources of Guidance Exist

ERISA provides for the establishment of an Advisory Council on Employee Welfare and
Pension Benefit Plans, known as the ERISA Advisory Council. The duties of the Council
are to advise the Secretary of Labor and submit recommendations regarding the
Secretary's functions under ERISA.

The ERISA Advisory Council made numerous recommendations to EBSA in 2006,
2008, and 2011. For example, the Council recommended in 2008 that DOL should issue
guidance that defines and addresses the complex nature and distinct characteristics of
hard-to-value assets and describe the ERISA obligations when selecting, valuing,
accounting for, monitoring and disclosing/reporting these assets. EBSA has been
reviewing, but has made no decisions on, the Advisory Council’s 2006, 2008, and 2011
recommendations.


                                                  EBSA Oversight of Alternative Investments
                                            9                Report No. 09-13-001-12-121
                                                U.S. Department of Labor – Office of Inspector General


GAO and the AICPA have recommended EBSA provide guidance to fiduciaries of
employee benefit plans investing in alternative investments, but EBSA has not yet
implemented these recommendations. Other sources of guidance available to plan
administrators include the AICPA, the Financial Accounting Standard Board (FASB) and
Generally Accepted Accounting Principles (GAAP).

The AICPA’s position on the valuation of alternative investments is that valuation of
these assets is problematic. Determining the value of alternative investments, which can
fluctuate substantially and may not have readily available market value, can be
extremely difficult. The AICPA noted that valuations were subjective, often required the
assistance of third party specialists, and complicated by limited transparency. The
AICPA also noted that valuations of alternative investments were frequently a “pass
through” of values provided by the fund companies. The AICPA and FASB have both
issued guidance regarding both valuation and disclosure of alternative investments.

The AICPA has issued guidance on valuing alternative investments, noting that plan
management is responsible for asset valuations and financial statement
disclosures. Even if plan management uses third parties, such as custodians, asset or
fund managers, or other service providers to assist in determining the value of
investments reported in the plan’s financial statements and on Form 5500, the DOL
holds plan management responsible for the proper reporting of plan investments. This
responsibility cannot be outsourced or assigned to a party other than plan management.
While plan management may look to the service provider for the mechanics of the
valuation, it must have sufficient information to evaluate and independently challenge
the valuation. Moreover, depending on the method of accounting, the asset values
presented by alternative investments entities on their audited financial statements may
be at something other than fair value. Finally, even audited fund values reported by
alternative investment entities may not be at fair value because of complex factors, such
as illiquidity of ownership interests, possible sale restrictions, or other considerations.
Therefore, it is important that plan management become familiar with the plan’s
investments and the methods and significant assumptions used to value them,
especially for hard-to-value investments.

GAAP requires that plan management establish an accounting and financial reporting
process for determining the fair value measurements and disclosures, select
appropriate valuation methods, identify and adequately support any significant
assumptions used, prepare the valuation, and ensure that the presentation and
disclosure of the fair value measurements are in accordance with GAAP. EBSA
however, cannot enforce this specific GAAP requirement. 4

In its response, EBSA takes the position that ERISA Sec. 404 (a) provides adequate
guidance to plan fiduciaries. In addition, EBSA asserts that the 1996 Ludwig letter which
provided guidance on investments in derivatives, would be “equally applicable … [to]

4
 Technically, EBSA can require plans to be compliant with GAAP reporting inasmuch as the agency can reject Form
5500 filings that are deficient, but EBSA performs only a limited number of reviews of filings for this purpose.
                                                              EBSA Oversight of Alternative Investments
                                                       10                Report No. 09-13-001-12-121
                                                 U.S. Department of Labor – Office of Inspector General


hard to value alternative investments.” However, this letter was never formalized as
guidance for investments other than derivatives; even so, EBSA’s position on guidance
is not supported by the OIG’s findings and the statements and recommendations made
by the ERISA Council, AICPA, IRS, and GAO, all of which have found that more
guidance is necessary.

Plans Did Not Demonstrate Fair Value of Assets by Either an Established Process or
Independent Valuations

Given this lack of guidance, we found that in approximately 90 percent of plans in both
the “enforcement” (39 out of 46) and “plans” samples (42 out of 45), representing about
$24 billion in assets, the associated plan administrators either had not obtained
independent valuations or could not demonstrate they had applied an appropriate
analytical process to determine the fair market value of all 5 hard-to-value alternative
investments. Plans in our samples reported values and performance that were passed
on to them from other entities, often the investment entity. Plans did not demonstrate
written documentation relating to the valuation as necessary for a determination of how,
and on what basis, an asset was valued, and therefore whether that valuation reflected
an asset's fair market value. EBSA has previously stated that it would be contrary to
prudent business practices for a fiduciary to act in the absence of such written
documentation of fair market value.

We asked the administrators of the plans sample to show us how they ensured they
presented plan assets at fair market value. Only one plan was able to provide an
independent valuation or demonstrate an established process to evaluate and
determine the fair market value of all the plan’s hard-to-value investments. We
determined:

    •    One plan administrator generally relied on unaudited estimates of value for
         $28 million of hard-to-value limited partnerships and hedge funds out of total plan
         assets of $70 million.

    •    Another plan administrator provided documentation that did not support the fair
         value for $1.3 billion of hard-to-value investments (39 percent of the plan’s totals
         assets of $3.1 billion). The plan invested in more than 50 limited partnerships,
         comingled funds, hedge funds, real estate investments, 103-12 investments, 6
         and a pooled separate account, all considered alternative investments.

These plan administrators did not have an established process to evaluate the fair
market value of hard-to-value assets. Such a process would include a complete
understanding of the underlying investments and the fund’s investment strategy. In
addition, plan administrators did not have a thorough knowledge of the investment
5
  Hard-to-value investments as defined by FASB, and determined by the OIG to represent more than 5 percent of
plan assets.
6
  An entity whose underlying assets include "plan assets" of two or more plans that are not members of a "related
group" of employee benefit plans.
                                                                EBSA Oversight of Alternative Investments
                                                         11                Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


entity’s valuation methodology to ensure that they were presented at fair market
value. A process that merely uses the investment entity’s claimed value for all funds
without additional analysis may not ensure that the alternative investments are valued at
fair market value.

The Limited Scope Audit Exemption Increases the Risk of Loss to Plan Participants and
Beneficiaries

In full scope audits, IQPAs ensure that plan administrators present assets at current
value. Auditors test to verify that plan financial reports present plan assets at current
value and attest to this via the auditor’s opinion, thus providing some measure of
assurance to plan participants.

However, ERISA allows plans to elect a “limited scope audit” in which IQPAs perform no
auditing procedures to test for existence or valuation of plan assets held and “certified”
by a qualifying financial institution. Most plan trustees and custodians are financial
institutions that can avail themselves of the audit exemption. Financial institutions
holding these plan assets need not certify that they are reporting them at fair market
value, but only that their records are “complete and accurate.” Lastly, these records
could be nothing more than a pass through of estimated values directly from the
alternative investment entity, which could give rise to a conflict of interest when it comes
to reporting investment losses. This presents challenges for pension plan administrators
and auditors in ensuring both the existence and valuation of alternative investment
assets and ultimately, in reporting plan investments at fair market value.

In 2010, more than $3 trillion in assets received only a “limited scope audit,” up from just
more than $520 billion in 1989.

Consequently, a potentially unaudited investment entity – which may have an incentive
to report gains and asset growth – can provide the values of alternative investments to a
financial institution which, in turn, transmits these values to plan administrators without
employing any audit procedures, analyses, or due diligence to verify the information
provided by the investment entity. Participants and beneficiaries are at an increased risk
for losses due to the lack of transparency and accountability from these types of
investments.

EBSA has not provided guidance to plan administrators concerning the use of financial
institution certifications of plan assets in limiting the scope of an audit and obtaining and
supporting the current value for plan investments. In addition, while the 2010 ERISA
Advisory Council studied the issue of limited scope audits and made recommendations,
EBSA has not formally evaluated or taken action on those recommendations. As a
result, plan administrators using limited scope audits are not consistently presenting
plan assets at current value in their financial statements as required by ERISA. Instead,
they are using asset values from asset certifications provided by qualified financial
institutions even though these certifications may not always be an accurate reflection of
current value.
                                                   EBSA Oversight of Alternative Investments
                                             12               Report No. 09-13-001-12-121
                                                U.S. Department of Labor – Office of Inspector General


Since 1984, the OIG has recommended repeal of the limited scope audit provision
because we believe that this provision no longer serves the purpose intended and
increases risk of loss to plan participants and beneficiaries. The OIG most recently
reiterated this recommendation in September 2012. 7 In that audit, we also
recommended EBSA clarify the requirements needed to hold and certify plan assets
and provide guidance to plan administrators to identify and adequately support the
current value of plan assets in limited scope audits. EBSA has yet to take action on
these important legislative and regulatory recommendations.

EBSA has agreed that Congress should repeal the limited scope audit exemption. In the
past, EBSA has proposed changes to ERISA. However, Congress has not acted to
make these changes and EBSA has not proposed eliminating the limited scope audit
provision since 1997.

We found 46 percent of the plans in our plans sample received limited scope audits.
When using limited scope audits, plan administrators need to understand the nature and
scope of the certification the institution has provided before concluding that the certified
information may be used to satisfy the administrator’s obligation to report the fair value
of the assets on the plan’s annual report. If the certification does not fulfill ERISA
requirements, plan administrators must perform sufficient due diligence to determine the
fair value of the assets in question. We found that because plan management does not
understand its responsibilities under limited scope audits, they have relied on
trustee/custodial statements that did not certify to all the plans’ assets or state them at
fair market value and did not perform sufficient due diligence. For example:

    •   One sample plan that received a limited scope audit had approximately
        $331 million, or 23 percent, of the plan’s total assets invested in hard- to-value
        alternative investments not included in the trustee’s certification. The estimated
        values for these investments were provided to the plan’s management from its
        investment managers and did not demonstrate the underlying methodologies to
        support their valuation.

    •   For another sample plan, approximately $290 million, or 47 percent, of the plan’s
        total assets were invested in alternative investments not certified by the plan’s
        trustee. These alternative investments were hedge funds and private equity
        assets whose values were reported by plan management based on information
        provided by the investment managers or general partners without the underlying
        methodologies to support their valuations.

Result: A Cascade of Circumstances

Each of the elements discussed in this section adds to the next. The inherent riskiness
of alternative investments is compounded by the fact that they are difficult to value.

7
 Changes Are Still Needed in the ERISA Audit Process to Increase Protections for Employee Benefit Plan
Participants (Report No. 09-12-002-12-121).
                                                              EBSA Oversight of Alternative Investments
                                                      13                 Report No. 09-13-001-12-121
                                               U.S. Department of Labor – Office of Inspector General


Adding to the problem is the fact that, lacking concrete guidance by EBSA, plan
administrators do not always understand their responsibilities to prudently invest,
monitor, and value alternative investments by relying on trustee, custodial, and
investment firm statements that do not provide assurances as to the fair market value of
these investments. Finally, the limited scope audit exemption results in a lack of
independent oversight by the IQPA community. This combination of elements creates
an environment that places retirement dollars at risk.

Finding 2 — EBSA Needs to Improve Procedures in Enforcement Reviews of
            Plans' Valuations of Hard-To-Value Investments

As part of its regional enforcement project initiatives, EBSA’s Office of Enforcement
(OE) conducted investigations into plan valuations of hard-to-value investments. From
FY 2008 to FY 2012, EBSA closed approximately 225 cases involving large plans with
hard-to-value investments.

Of the 225 hard-to-value investigative cases it closed from FY 2008 to FY 2012, EBSA
issued only eight violations for failure to obtain proper valuations or appraisals.
Furthermore, approximately 90 percent of the plans in our enforcement sample either
did not obtain independent valuations or did not demonstrate an analytical process to
determine the appropriate fair market value of all plan assets. EBSA investigators did
not cite any of the plans in our enforcement sample for failure to obtain proper
valuations or appraisals. Moreover, for 71 percent of the cases in our enforcement
sample, EBSA investigators did not indicate on the reports of investigation that the
areas examined and records reviewed for valuations were completed. The following
examples illustrate plan failures to obtain independent valuations or have an established
process to properly value plan assets.

    •   In one case, EBSA opened an investigation because a plan lost $50 million due
        to investments in the Madoff scheme. Despite the investigation being initiated
        under the regional hard-to-value program initiative, which looked specifically at
        issues related to hard-to-value investments, EBSA’s report made no mention of
        the plan’s valuation of over $150 million of other hard-to-value investments. We
        noted that plan management relied on client statements with “unaudited” values
        for alternative investments totaling $148 million from its investment advisor, Ivy
        Asset Management. As a side note, nearly $220 million was recovered for victims
        of Madoff by DOL, the Attorney General of NY, and certain private parties in a
        settlement with Ivy. 8 Between 1998 and 2008, Ivy was paid over $40 million to
        give advice and conduct due diligence for clients with large Madoff investments.
        Ivy's due diligence revealed that Madoff was not investing his funds as
        advertised. For example, Madoff's advertised strategy required him to buy and
        sell massive amounts of options in securities, but Ivy learned that there were
        insufficient options traded to support Madoff's purported trading strategy. When

8
 http://www.ag.ny.gov/press-release/ag-schneiderman-obtains-210-million-settlement-ivy-asset-management-
connection-madoff & http://www.dol.gov/opa/media/press/ebsa/EBSA20122100.htm
                                                             EBSA Oversight of Alternative Investments
                                                      14                Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


       questioned, Madoff gave Ivy three vastly different explanations to explain the
       options problem, all of which Ivy knew to be false. Internal Ivy documents reveal
       the firm’s deep but undisclosed reservations about Madoff. Despite its
       reservations, Ivy did not disclose its suspicions to clients for fear of losing the
       fees Ivy received through the Madoff investments.

   •   In another case, EBSA initiated an investigation after learning that a plan lost
       $588 million, or 42 percent, of its total asset value of $1.4 billion. While EBSA
       identified that the fund contained mostly hard-to-value investments, the case file
       did not contain documentation to demonstrate that plan management had
       obtained independent valuations or an established process to evaluate and
       determine the fair market value of its hard-to-value investments totaling
       approximately $581 million. EBSA did not cite the plan with a failure to obtain
       proper valuation or appraisal. We also noted the underlying fund’s auditors
       believed that “confirmation” of securities with the fund custodian, provided a
       reasonable basis for their audit opinion. However, professional auditing
       standards state simply receiving a confirmation from a third party, either in
       aggregate or on a security-by-security basis, does not in and of itself constitute
       adequate audit evidence with respect to the asset valuation or existence.

These are prime examples of why plan management need to establish an accounting
and financial reporting process for determining the fair value measurements and
disclosures, select appropriate valuation methods, identify and adequately support any
significant assumptions used, prepare the valuation, and ensure that the presentation
and disclosure of the fair value measurements are in accordance with GAAP. Without
this process, the reliance on client statements for values that are estimated or unaudited
provides no assurances for GAAP and ERISA reporting. Additionally, audited fund
values reported by alternative investment entities may not translate into fair value for the
plan invested because of complex factors such as illiquidity of ownership interests,
possible sale restrictions, the quality of work of the entity’s auditors, and other
considerations.

In its response, EBSA stated that it provided the OIG documentation to substantiate
enforcement reviews of plans’ valuation of hard-to-value alternative investments. Based
on this documentation, EBSA believed that its investigators properly examined all but
10% of the cases in our sample. However, after reviewing this documentation, the OIG
still maintains that for approximately 90 percent of plans in our sample, plan
management either did not obtain independent valuations or demonstrate an analytical
process to determine the fair market value of all their hard-to-value investments.

We also found potential issues relating to IQPA audit quality in our enforcement sample.
EBSA does not have specific procedures in its enforcement investigations to evaluate
audit quality with respect to alternative investments, or procedures to refer cases in
which EBSA finds potentially substandard audit work to its Office of Chief Accountant
(OCA), who is tasked with reviewing audit quality issues. The fact that a plan received
an unqualified audit opinion only provides assurances to participants that the audit was
                                                   EBSA Oversight of Alternative Investments
                                            15                Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


performed according to professional standards. In our enforcement sample, we found
poor valuation practices by plan management, which we believe plan IQPAs should
have identified and performed additional audit procedures, yet no referrals were made
by EBSA investigators to the OCA. IQPAs engaged on behalf of participants to plan
audits play an important role in bringing questions, issues, and irregularities discovered
during the course of their audit engagement to the attention of the plan administrator. In
this regard, we believe, as part of the reviews of certifications, IQPAs should have
identified potential problems when plan assets were not certified, or values were not
reported at fair value. The limited scope audit exemption applies only to the investment
information certified by the qualified trustee or custodian. The AICPA employee benefit
plan audit and accounting guide noted that if the plan’s auditor becomes aware that the
certified information is incomplete, inaccurate, or otherwise unsatisfactory, further
inquiry may be necessary which might result in additional testing or modification to the
auditor’s report. In certain instances, a limited scope audit may no longer be
appropriate. In a full scope audit, we would expect to see the plan’s auditors performing
procedures to verify and test the value of all alternative investments.

The following cases, however, illustrate potential issues of substandard audit quality by
plan IQPAs and OE’s lack of specific procedures to evaluate audit quality with respect
to alternative investments, and specific procedures to refer cases OCA to review further
issues of audit quality:

   •   In a plan with a limited scope audit, the trustee agreement stated that the trustee
       would have no duty or responsibility to obtain valuations of any trust assets
       whose value is not readily determinable on an established market. The auditor’s
       opinion report did not refer to additional audit procedures on the plan’s
       hard-to-value investments. The hard-to-value investments reported on bank
       certification totaled $1.5 million, representing 12 percent of the plan’s assets.

   •   In another plan with a limited scope audit, the plan’s trustee made reference to
       the need to modify the certification of plan assets as it was waiting for alternative
       investment entities to provide it with “updated” estimates of values totaling
       $25.6 million, or 18 percent, of total plan assets.

   •   In another plan with a limited scope audit, the trustee certification did not extend
       to a limited partnership valued at $10 million, or approximately 18 percent, of the
       total plan assets. Moreover, the plan administrator relied on the limited
       partnership’s estimate for valuation with no additional support in the case file and
       the auditor’s report did not refer to additional audit procedures on the limited
       partnership.

   •   In an example of a full scope audit, the plan administrator relied on a valuation
       for the alternative investment of $1.3 million, or 39 percent, of the plan’s
       $3.3 million of total assets, stating that it was an estimate and provided no
       assurances for ERISA reporting.

                                                   EBSA Oversight of Alternative Investments
                                             16               Report No. 09-13-001-12-121
                                      U.S. Department of Labor – Office of Inspector General


In its response, EBSA takes the position that the fact that a portfolio is professionally
managed should somehow affect the plan administrator’s role and responsibilities, and
appears to endorse the practice of plan administrators relying on values provided by the
alternative investment itself (“the role of ‘plan management’ would be to monitor…these
professional advisors”). We disagree. The responsibility for accurately reporting fair
values cannot be outsourced or delegated to a party other than plan management. The
potential conflict of interest that can arise when investment managers report asset
values cannot be underestimated. As a result, plan administrators should not and
cannot rely on values provided by investment managers without conducting their own,
independent due diligence.

EBSA could take several steps toward improving its ability to detect deficiencies during
enforcement reviews of plans with hard-to-value investments. For example, EBSA could
design specific procedures to review valuations and determine whether plan
management obtained independent valuations for all hard-to-value investments or had
an established process to determine the valuation for these types of investments. EBSA
could also develop formal procedures to determine the scope and nature of the IQPA’s
testing of plan assets as it can provide further insight as to the nature of plan asset
valuations reported by plan management. OE could also establish specific procedures
to make referrals to its Office of Chief Accountant when it finds potential issues of
substandard audit quality. Finally, EBSA could share best practices used among
regions. From the three EBSA regional offices in our sample, only Cincinnati used a
specific questionnaire to inquire of plan management regarding additional information
for the plan’s hard-to-value investments. This best practice was not shared or used by
the other two regions. Without these additional measures, EBSA may not be detecting
all potential deficiencies in enforcement reviews for plans with hard-to-value
investments.

Finding 3 — The Form 5500 Data Collection Process Does Not Provide Ready
            Access to Important Information

The Form 5500 is an important compliance, research, and disclosure tool for EBSA.
The Form, however, has a limited ability to capture information on hard-to-value
investments.

The FASB established a framework for measuring fair value. The framework provides a
fair value hierarchy that ranks investments into three levels, level 1 being the most
easily valued and level 3 being the most difficult.

Although plans are required by FASB to report levels 1 through 3 investments on their
financial statements, and those statements are attached to the Form 5500, this
information is not entered in a manner that is readily accessible using automated
computer searches by EBSA. In order to determine which investments qualify as levels
2 and 3, EBSA would have to manually open and read the financial statement attached
to each Form 5500, then manually tabulate the amounts contained in the notes to the
financial statements. By contrast, other areas of the Form 5500 can be queried and
                                                  EBSA Oversight of Alternative Investments
                                           17                Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


tabulated electronically. The IRS Emerging Issues Task Force recently determined that
significant assets invested by plans in alternative investments may be a serious
problem. Consequently, it submitted a proposal, on June 15, 2010, to DOL to add
content regarding the value of alternative investments in Form 5500. This proposal was
not approved. EBSA believed that neither “alternative investments” nor “derivative
investments” have a settled meaning and putting such a question on the Form 5500
would likely have implications for the regulated community beyond the scope of the
Form 5500.

Schedule H of the Form 5500 captures financial details about the plan’s assets,
liabilities, and investments, among others. Question 4g on the Form asks plans if they
hold any assets where the fair market value was not readily determinable on an
established market and if so, the dollar amount involved. Almost 44 percent of the cases
in our enforcement sample that were targeted by EBSA because of hard-to-value
investments actually lacked any significant amount of this type of investment. Moreover,
almost none of the plans in our plans sample accurately answered this question. In one
case, a plan which held over a billion dollars in level 3 investments failed to report them.
Because of the limitations in capturing and correlating hard-to-value investments from
plan financial statements, EBSA was not able to analyze nor effectively determine
plans’ compliance with the Schedule H reporting requirement.

For filing year 2010, less than 1 percent of the 88,000 plans with 100 or more
participants and audited financial statements reported holding hard-to-value
investments. Based on our audit sample results and the overall reporting rate of less
than 1%, the OIG believes the number of plans holding such investments is significantly
underreported. As a result, EBSA investigators cannot effectively target plans holding
such investments for increased scrutiny.

EBSA officials stated that it uses many different methods of targeting, including
information obtained from other investigations, referrals from other government
agencies, media reports, and participant complaints. Using varied methods of targeting
allows EBSA to identify issues that may not be readily available from the Form 5500.
Nonetheless, EBSA officials stated that the agency had already initiated a project with
the IRS and PBGC to evaluate changes to the Form 5500 series, including modernizing
and improving the financial reporting requirements, in conjunction with evaluation of
improvements in the EFAST filing and processing system as part of a future migration
from EFAST2 to EFAST3. This change could be beneficial to assist EBSA in ensuring
plans’ compliance with Form 5500 reporting and targeting plans with hard-to-value
investments by specific asset class.

CONCLUSION

EBSA needs to provide additional oversight and guidance to ERISA plans that hold
hard-to-value alternative investments. Without adequate assurances that plan
management and fiduciaries prudently select, monitor, and value plan investments,
ERISA plans invested in these types of assets can sustain losses from imprudent,
                                                   EBSA Oversight of Alternative Investments
                                            18                Report No. 09-13-001-12-121
                                        U.S. Department of Labor – Office of Inspector General


speculative, Ponzi, or other fraudulent schemes, which are prime examples of why
assurances of existence and valuation matter. Participants and beneficiaries who are
invested in plans to accrue retirement income are at an increasing risk of loss as assets
invested in alternative, hard-to-value investments grow.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employee Benefits Security:

1. Improve current protections under current authority to:

      a. Provide guidance to plan administrators to identify and adequately support
         the fair market value of hard-to-value plan assets.

      b. Evaluate and determine the feasibility of ERISA Advisory Council
         recommendations on hard-to-value alternative investments.

2. Improve enforcement case file reviews by adding procedures to:

      a. Ensure that plan administrators obtain independent valuations or use an
         analytical process to determine their fair market value of hard-to-value plan
         assets.

      b. Evaluate the type of audit performed, testing of valuation by plans’ IQPAs for
         to hard-to-value investments, and make referrals to the Office of Chief
         Accountant when issues arise regarding potential substandard audit quality.

      c. Ensure regions share best practices as a result of their regional enforcement
         initiatives for hard-to-value investments.

3. Improve Form 5500 data collection, analysis, and targeting of plans with
   hard-to-value investments.

We appreciate the cooperation and courtesies EBSA personnel extended to the Office
of Inspector General during this audit. OIG personnel who made major contributions to
this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                    EBSA Oversight of Alternative Investments
                                             19                Report No. 09-13-001-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     EBSA Oversight of Alternative Investments
              20                Report No. 09-13-001-12-121
             U.S. Department of Labor – Office of Inspector General




Appendices




                         EBSA Oversight of Alternative Investments
                  21                Report No. 09-13-001-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     EBSA Oversight of Alternative Investments
              22                Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


                                                                               Appendix A
Background

The Employee Retirement Income Security Act of 1974 (ERISA) governs the investment
of assets in private sector employee benefit plans. ERISA gave oversight to the
Department of Labor (DOL) and DOL administers this oversight through its Employee
Benefit Security Administration (EBSA). In the context of our report, the terms
“fiduciary” and “plan administrator” refer to a person or entity who has control over plan
assets, gives investment advice, or has responsibility for plan administration. ERISA
requires that plan fiduciaries: 1) carry out their duties with care, skill, prudence, and
diligence; and 2) use independent qualified public accountants (IQPA) to audit employee
benefit plan financial statements. ERISA also requires that plan administrators report the
fair market value of plan assets annually. An accurate fair market valuation of plan
assets plays a critical role in determining plan funding levels and payments to
participants and beneficiaries. Since 1984, the OIG has reported that legislation aimed
at strengthening the quality of plan audits was needed. Audits that meet professional
standards are needed to ensure plan management meets its responsibility for proper
valuation and reporting of plan assets.

As of 2010, the latest year for which data is available, retirement plans had amassed
almost $3 trillion in alternative investments, of which EBSA estimated anywhere
between $800 billion and $1.1 trillion were hard-to-value. Estimates of the total dollars
invested in retirement plans vary, but are generally thought to be around $6.5 trillion. In
2010, Internal Revenue Service (IRS) Emerging Issues Task Force determined and
reported to EBSA that significant assets invested by plans in alternative investments
may be a serious problem.

Plan administrators cannot easily determine the fair market value of alternative
investments. Alternative investment entities may be unaudited, not listed on any national
exchange, and not subject to state or federal regulation. Plans are also not required to
obtain an independent valuation to demonstrate the fair market value of these types of
investments. Moreover, ERISA allows plans to elect a “limited scope audit” in which
IQPAs perform no auditing procedures to test for existence or valuation of plan assets
held and “certified” by a qualifying financial institution. Financial institutions holding
these plan assets also need not certify that they are reporting them at fair market value,
but only that their records are “complete and accurate.” Lastly, these records could be
nothing more than a pass through of estimated values directly from the alternative
investment entity, which gives rise to a conflict of interest when it comes to reporting
investment losses.

As a result, a potentially unaudited investment entity – which may have an incentive to
report gains and asset growth – can provide the values of alternative investments to a
financial institution which, in turn, transmits these values to plan administrators without
employing any audit procedures, analyses, or due diligence to verify the information
provided by the investment entity. Participants and beneficiaries are at an increased risk
                                                   EBSA Oversight of Alternative Investments
                                            23                Report No. 09-13-001-12-121
                                       U.S. Department of Labor – Office of Inspector General


for losses due to the lack of transparency and accountability from these types of
investments.

In 2010, approximately 70 percent of plans used limited scope audits, up from
46 percent in 1987. The OIG recently reported that EBSA needed to clarify and
strengthen limited scope audit regulations. 9 The ultimate responsibility for accurately
reporting the fair market value of plan assets, however, lies with plan administrators.

In a March 21, 1996, Information Letter to the Comptroller of the Currency, Eugene
Ludwig, (the “Ludwig Letter”) regarding the investment of ERISA plan assets in
derivatives, the DOL indicated that the same fiduciary standards would apply when plan
assets are invested in derivatives as when the assets are invested in other investments.
This effort would include understanding how the investment fits within the plan’s
investment policy, the plan’s potential for losses and an evaluation at the time of initial
investment and, as appropriate, on an ongoing basis, of market, credit, legal and
operational risks. Fiduciaries should have the requisite expertise to understand the
investment, as well as the personnel, control and resources to perform the appropriate
analysis, or in the alternative, engage outside experts for such purposes.

The American Institute of Certified Public Accountants (AICPA) Position

The AICPA's position on the valuation of alternative investments, such as hedge funds,
real estate, limited partnerships, private equity funds, and other difficult to value
investments, was that valuation was problematic. Determining the value of alternative
investments, which can fluctuate substantially and may not have readily available
market value, and can be extremely difficult. The AICPA noted valuations were
subjective, often required the assistance of third party specialists, and were complicated
by limited transparency. Many times the valuations of the alternative investments on the
books were the “pass through” of the values provided by the fund companies or limited
partnerships for commingled funds.

EBSA Regional Office Initiatives

EBSA’s Office of Enforcement (OE) established regional enforcement projects to
investigate alternative investments. From Fiscal Years 2008 through 2012, EBSA
regional offices closed 225 investigations to target large plans with hard-to-value
investments. Over 90 percent of these investigations were closed by the following 4 of
the 10 EBSA Regional Offices:
   1. Atlanta
   2. Cincinnati
   3. Boston
   4. Los Angeles

9
    Report Number 09-12-002-12-12.
                                                   EBSA Oversight of Alternative Investments
                                            24                Report No. 09-13-001-12-121
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objective, Scope, Methodology, and Criteria

Objective

We conducted an audit to answer the following question:

Is EBSA providing adequate oversight of employee benefit plans investing in alternative
investments?

The relevant sub-objectives were:

   1. To what extent are plan management and fiduciaries demonstrating the prudence
      of alternative investments?

   2. Has EBSA formally evaluated and taken appropriate actions on the ERISA
      Council’s, and other authoritative sources’ recommendations to provide guidance
      for ERISA plans concerning alternative investment practices?

   3. Does EBSA enforcement strategy adequately identify and target plans with
      alternative investments using Form 5500?

 Scope

 Our scope included all EBSA policies and procedures pertaining to EBSA
 enforcement reviews of plans with hard-to-value investments for January 1, 2008,
 through December 31, 2012. Additionally, for plan Filing Year 2010, we reviewed
 responses for investment information from 45 employee benefit plans with assets in
 with 20 percent of more of plan assets invested in Alternative Investments. We
 reviewed prior EBSA and GAO studies on alternative investments. Fieldwork was
 conducted at EBSA headquarters in Washington, DC, and the Cincinnati, Los
 Angeles, and Boston Field Offices.
 We conducted this performance audit in accordance with generally accepted
 government auditing standards. Those standards require that we plan and perform
 the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
 our findings and conclusions based on our audit objective. We believe that the
 evidence obtained provides a reasonable basis for our findings and conclusions
 based on our audit objective.
 Methodology

 To accomplish our audit, we reviewed professional standards, applicable
 regulations, and EBSA policies and procedures. We also interviewed officials from
 EBSA, the American Institute of Certified Public Accountants (AICPA), the Pension

                                                  EBSA Oversight of Alternative Investments
                                           25                Report No. 09-13-001-12-121
                                     U.S. Department of Labor – Office of Inspector General


Benefit Guarantee Corporation, and reviewed prior ERISA Advisory Council reports
to gain an understanding of standards for plans investing in alternative investments.

In planning and performing our audit, we considered EBSA’s internal controls
that were relevant to our audit objective. We confirmed our understanding of
these controls through interviews, obtaining, and reviewing EBSA reviews,
policies, procedures, and enforcement actions. Our consideration of internal
controls relevant to our audit objective would not necessarily disclose all matters
that might be significant deficiencies. Because of inherent limitations in internal
controls, misstatements or noncompliance may nevertheless occur and not be
detected.

To determine whether EBSA provided adequate oversight of employee benefit
plans investing in alternative investments, we reviewed a sample of closed EBSA
enforcement cases files for FYs 2008 and 2012 of plans hard-to-value
investments. We selected a random sample of 46 case files from the Boston,
Cincinnati, and Los Angeles Regional Offices. These 3 regions comprised
approximately 54 percent of the 225 closed enforcement cases from FY 2008
through FY 2012. These 46 sampled plans had end-of-year total alternative
investments of $1.6 billion. Of the 46 sampled case files, 21 received limited
scope audits and 25 plans received full scope audits.

We also selected and reviewed a stratified random sample of 45 out of 1380
Defined Benefit plans with 20 percent or more of plan assets invested in
alternative investments. These 45 sampled plans had end-of-year total
alternative investments of $22 billion. Of the 45 sampled plans, 18 received
limited scope audits and 27 plans received full scope audits. For these plans, we
contacted plan management to obtain documentation to support the prudence
and fair value assumptions of the plan’s alternative investments.

For both samples, we reviewed hard-to-value investments as defined by FASB,
and determined by the OIG to total more than 5 percent of plan assets. For these
investments we reviewed documentation to determine plan management’s
process for determining the fair market value of these investments, and where
applicable, EBSA’s evaluation of this process. Since EBSA’s enforcement case
files of plans with hard-to-value investments were non-statistical, we did not
extrapolate our sampled testing to the employee benefit plan filing universe.
Similarly, we did not extrapolate our second sampled testing of plans with
alternative investments due to limitations in Form 5500 in capturing information
on hard-to-value investment reporting.

To achieve the audit’s objective, we relied on computer-processed data from the
ERISA Filing Acceptance System II (EFAST2) Form 5500 Series plan filings. We
assessed the reliability of this data by: (1) performing analytical tests of data
elements, (2) reviewing prior OIG and GAO reports on the EFAST2 system, and
(3) tracing selected data elements from Form 5500 filings to plan documents.
                                                 EBSA Oversight of Alternative Investments
                                          26                Report No. 09-13-001-12-121
                                    U.S. Department of Labor – Office of Inspector General


Based on these tests and assessments, we concluded the data was sufficiently
reliable for us to use in meeting the audit’s objective.

Criteria

We used the following criteria to accomplish our audit:

  •   Title I of the Employee Retirement Income Security Act of 1974

  •   The Pension Protection Act of 2006

  •   29 C.F.R. § 2550.404a- Prudent Man Standard for fiduciaries managing plan
      investments

  •   1996 Ludwig Letter- regarding the investment of ERISA plan assets in derivatives

  •   The Financial Accounting Standards Board Statement No. 157, Fair Value
      Measurements (FASB Statement No. 157)




                                                EBSA Oversight of Alternative Investments
                                           27              Report No. 09-13-001-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     EBSA Oversight of Alternative Investments
              28                Report No. 09-13-001-12-121
                                  U.S. Department of Labor – Office of Inspector General


                                                                          Appendix C
Acronyms and Abbreviations

AICPA          American Institute of Certified Public Accountants

FY             Fiscal Year

DOL            Department of Labor

EBSA           Employee Benefits Security Administration

EFAST          ERISA Filing Acceptance System

ERISA          Employee Retirement Income Security Act of 1974

GAO           Government Accountability Office

GAAP          Generally Accepted Accounting Principles

FASB           Financial Accounting Standards Board

IQPA          Independent Qualified Public Accountant

IRS           Internal Revenue Service

OCA            EBSA’s Office of Chief Accountant

OE             EBSA’s Office of Enforcement

OIG            Office of Inspector General

SEC            Securities Exchange Commission




                                              EBSA Oversight of Alternative Investments
                                       29                Report No. 09-13-001-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     EBSA Oversight of Alternative Investments
              30                Report No. 09-13-001-12-121
                                U.S. Department of Labor – Office of Inspector General


                                                                        Appendix D
EBSA Response to Draft Report




                                            EBSA Oversight of Alternative Investments
                                     31                Report No. 09-13-001-12-121
U.S. Department of Labor – Office of Inspector General




            EBSA Oversight of Alternative Investments
     32                Report No. 09-13-001-12-121
U.S. Department of Labor – Office of Inspector General




            EBSA Oversight of Alternative Investments
     33                Report No. 09-13-001-12-121
U.S. Department of Labor – Office of Inspector General




            EBSA Oversight of Alternative Investments
     34                Report No. 09-13-001-12-121
U.S. Department of Labor – Office of Inspector General




            EBSA Oversight of Alternative Investments
     35                Report No. 09-13-001-12-121
U.S. Department of Labor – Office of Inspector General




            EBSA Oversight of Alternative Investments
     36                Report No. 09-13-001-12-121
U.S. Department of Labor – Office of Inspector General




            EBSA Oversight of Alternative Investments
     37                Report No. 09-13-001-12-121
U.S. Department of Labor – Office of Inspector General




            EBSA Oversight of Alternative Investments
     38                Report No. 09-13-001-12-121
                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix E
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director), Jason Jelen
(Audit Manager), Richard Donna Jr., Lewis Leung, Patrick Trager, Tim Kerschen, Mary
Lou Casazza, and Steve Witherspoon.




                                                 EBSA Oversight of Alternative Investments
                                           39               Report No. 09-13-001-12-121
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     EBSA Oversight of Alternative Investments
              40                Report No. 09-13-001-12-121
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
